WAIVER
SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

20-5350

v. City of Phoenix, et al.

Jordan Duke Venable
(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
0 Please enter my appearance as Counsel of Record for all respondents.
0 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

I am .a member of. the Bar of the Supreme Court of the United States.
0 I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date.

9/11/2020

(Type or print) N ame

Tara Brooke Zoellner
0 Mr. 0 Ms.

Firm

Wieneke Law Group

❑ Mrs. 0 Miss

•.,-

1095 West Rio Salado Parkway, Suite 209
Tempe, AZ
City & State

Address

P6
ne

(602) 715-1875

Email

zip 85281

tzoellner@wienekelawgroup.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S' COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jordan Duke Venable

RECEIVED
SEP 1 8 2020
.OFFICE OF THE CLERK
SUPREME COURT, U.S.

